Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Physical, Occupational, and Speech Therapy
   for Medicare Nursing Home Patients

   Medical Necessity, Cost, and Documentation
             Under the $1500 Caps




                            AUGUST 2001
                           OEI-09-99-00560
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco Regional Office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION IX                                                   HEADQUARTERS

Deborah Harvey, Project Leader                              Susan Burbach, Program Specialist
Christopher Tarbell, Lead Analyst                           Linda Moscoe, Technical Support Staff
Robert Gibbons, Program Analyst                             Brian Ritchie, Technical Support Staff
Camille Harper, Program Analyst                             Bambi Straw, Program Specialist
Scott Hutchison, Program Analyst                            Stuart Wright, Director, Medicare and
Steven Zerebecki, Program Analyst                                          Medicaid Branch


  To obtain copies of this report, please call the San Francico Regional Office at (415) 437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                       EXECUTIVE                      SUMMARY

PURPOSE

         This inspection analyzed the medical necessity, cost, and medical record documentation
         of physical, occupational, and speech therapy provided to nursing home patients in
         calendar year 1999 and billed to Medicare Part B by nursing homes, rehabilitation
         agencies, or hospital outpatient departments.


BACKGROUND

         Medicare coverage guidelines state that all therapy must be reasonable, necessary,
         specific, and effective treatment for the patient’s condition. Therapy must be ordered by
         a physician or other qualified health care professional, require the skills of a qualified
         therapist, and be dictated by a written treatment plan. The plan must include specific and
         measurable goals and a reasonable estimate of when the patient will attain the goals.

         In 1997, Congress changed nursing home reimbursement for therapy by setting two
         annual caps. Occupational therapy was limited to $1500 annually, while physical and
         speech therapy shared the same $1500 annual cap. In November 1999, the caps were
         suspended for 2 years effective January 1, 2000. The moratorium on the therapy caps has
         subsequently been extended through calendar year 2002. The law that suspended the
         caps also requires the Centers for Medicare and Medicaid Services (formerly known as
         the Health Care Financing Administration) to (1) recommend a process to assure the
         appropriate utilization of Medicare outpatient therapy and (2) establish an alternative
         payment policy based on diagnostic categories, functional status, and prior use of
         therapy. To meet the requirements of the law, Agency staff requested our assistance.

         Our national random sample consisted of 320 Medicare patients. We conducted on-site
         medical and financial reviews at 132 nursing homes, rehabilitation agencies, and hospital
         outpatient departments. Several teams of physical and occupational therapists and
         speech-language pathologists reviewed the medical records for 318 of the sampled
         patients.


FINDINGS

The $1500 therapy caps did not prevent Medicare nursing home beneficiaries
from receiving necessary and appropriate therapy

         Less than 2 percent of Medicare beneficiaries reached either of the $1500 therapy caps.
         While the caps were in place, beneficiaries required no additional therapy in



Nursing Home Therapy Under the $1500 Caps        1                                     OEI-09-99-00560
          approximately 82 percent of therapy episodes. Furthermore, although physical and
         speech therapy shared a cap, most beneficiaries received the physical and speech therapy
         they needed.

Despite the therapy caps, 14 percent of all therapy was not medically necessary

         Although most therapy was deemed medically necessary, 14 percent was not. Medicare
         allowed more than $28 million during the first 6 month of 1999 for these medically
         unnecessary services. Therapy was medically unnecessary because (1) patients were not
         appropriate candidates; (2) treatment goals were met, but therapy continued; (3) therapy
         goals were not achieved, and a reevaluation was not conducted; or (4) skilled therapy was
         provided instead of routine maintenance.

Approximately 10 percent of the therapy units were not supported by adequate
documentation

         Medicare paid nursing homes approximately $12 million for undocumented units and an
         additional $8 million for inadequately documented units during the first 6 months of
         1999.

Physician’s orders were not included in some medical records

         Medicare guidelines state that therapy must be ordered in advance by a physician or other
         health care professional and documented in writing in the medical record. We were
         unable to locate physician’s orders for approximately 5.6 percent of the total therapy
         units billed to Medicare in the first 6 months of 1999. Medicare paid nursing homes
         approximately $10.6 million for these units. Since the focus of our study was to
         determine the medical necessity, quality of care, and utilization of therapy, some of these
         units may have been included in the calculations for medically unnecessary,
         undocumented, and inadequately documented units.



       Medicare allowed in error approximately $48.5 million for Part B therapy for nursing
       home patients during the first 6 months of 1999. This includes $28.7 million for
       medically unnecessary therapy, $12.2 million for undocumented therapy units, and
       $7.6 million for inadequately documented therapy units. These three categories
       represent an overall error rate of 24.7 percent of the total allowed amount of
       approximately $196.5 million for Part B therapy during the first 6 months of 1999.

       Our sampling methodology does not allow us to make statistically valid projections
       for the entire year. However, if we assume that the second half of 1999 was the same
       as the first 6 months of 1999, we estimate that the amount Medicare allowed for
       unnecessary, undocumented, and inadequately documented therapy was $97 million.




Nursing Home Therapy Under the $1500 Caps         2                                    OEI-09-99-00560
RECOMMENDATIONS

         The Centers for Medicare and Medicaid Services (CMS) should:

         <	 encourage fiscal intermediaries to continue educating nursing homes on Part B billing
            and Medicare requirements for record documentation and retention, with an emphasis
            on the proper documentation of physician’s orders in patients records;

         <	 instruct fiscal intermediaries to conduct focused medical review in order to identify
            and collect Part B therapy overpayments;

         <	 continue working collaboratively with the national therapy associations to assure that
            they provide accurate and comprehensive information to their members on proper
            documentation of therapy in medical records; and

         <	 consider options when developing a new reimbursement system for Part B therapy,
            such as (1) reimbursement based on an episode of therapy and (2) prior authorization
            for therapy that exceeds a separate monetary cap for each type of therapy.


AGENCY RESPONSE

         We received comments on the draft report from CMS. The Agency concurred with our
         recommendations. They will continue to educate nursing homes on Medicare Part B
         billing and medical record documentation and continue to recommend that fiscal
         intermediaries conduct focused medical review whenever their analysis suggests
         egregious overutilization of services. The CMS will consider options when developing a
         new reimbursement system for Medicare Part B therapy. Finally, CMS will continue its
         ongoing collaboration with the national therapy associations to provide information on
         proper documentation of therapy in medical records. The full text of the Agency’s
         comments appears in appendix B.




Nursing Home Therapy Under the $1500 Caps        3                                     OEI-09-99-00560
                           TABLE                         OF              CONTENTS
                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          The $1500 caps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Unnecessary therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          The shared therapy cap . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          Undocumented or inadequately documented therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          Physician’s orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          Retention of medical records . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          A: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26





Nursing Home Therapy Under the $1500 Caps                            4                                                     OEI-09-99-00560
                                      INTRODUCTION

PURPOSE

         This inspection analyzed the medical necessity, cost, and medical record documentation
         of physical, occupational, and speech1 therapy provided to nursing home patients in
         calendar year 1999 and billed to Medicare Part B by nursing homes, rehabilitation
         agencies, or hospital outpatient departments.


BACKGROUND

Medicare Coverage for Skilled Nursing Facilities

         All skilled nursing facilities (SNFs) must meet the requirements of Section 1819 of the
         Medicare law. The SNFs must, for example, (1) provide 24-hour skilled nursing service
         under policies developed by physicians, registered nurses, or other professionals;
         (2) develop health plans for each patient, under the supervision of a physician;
         (3) maintain clinical records on all patients; and (4) meet a number of conditions to
         assure patients’ health and safety.

         All SNFs are required to assess each patient’s status and needs shortly after admission,
         including the need for physical, occupational, and speech therapy. The Nursing Home
         Reform Act (P.L. 100-203), which Congress passed as part of the Omnibus Budget
         Reconciliation Act of 1987, requires that SNFs assess all patients’ needs within 14 days
         of admission and reassess long-term patients annually.

         A physician must see the patient at least every 30 days.2 If a patient needs therapy over a
         period of time under the same treatment plan, the physician must recertify the continuing
         need for therapy every 30 days and estimate how long the patient will need therapy. 3
         Fiscal intermediaries, the insurance companies that process and adjudicate Medicare
         claims for inpatient hospitals and SNFs, often develop local medical review policies to
         supplement Medicare guidelines for medical necessity and utilization.




         1
          Throughout this report, we will refer to speech-language pathology as speech therapy.
         2
        Health Care Financing Administration, Skilled Nursing Facility Manual, Sections 214, 230,
230.3(C), and 271.
         3
             Ibid., Section 271.1B.

Nursing Home Therapy Under the $1500 Caps            5                                      OEI-09-99-00560
Descriptions of Physical, Occupational, and Speech Therapy

         Physical therapy includes, but is not limited to, (1) examining patients with impairments,
         functional limitations, disabilities, or other health-related conditions to determine a
         diagnosis, prognosis, and intervention; (2) alleviating impairments and functional
         limitations by designing, implementing, and modifying therapeutic interventions; and
         (3) preventing injury, impairment, functional limitation, and disability, including the
         promotion and maintenance of fitness, health, and quality of life.4 Common treatments
         include therapeutic exercise, prescription and customization of prosthetic devices and
         equipment, and wound management.

         Occupational therapy is the use of purposeful activity or interventions designed to
         achieve constructive outcomes which promote health and/or prevent injury or disability,
         and which develop, improve, maintain, or restore the highest possible level of
         independence of any individual who has an injury, illness, cognitive impairment, psycho
         social dysfunction, mental illness, developmental or learning disability, physical
         disability, or other disorder or condition.5 Occupational therapy primarily focuses on
         compensatory techniques to improve a patient’s ability to complete independently the
         activities of daily living. An example includes teaching a stroke patient new techniques
         to eat and dress himself as independently as possible.6

         Speech therapy includes (1) services for patients with speech, hearing, and language
         disorders which result in communication disabilities and (2) the diagnosis and treatment
         of swallowing disorders, regardless of the presence of a communications disability.
         Communication disabilities most frequently affect patients with cerebrovascular disease
         (e.g., stroke), Parkinson disease, multiple sclerosis, and laryngeal carcinoma. Patient
         conditions may include (1) hearing sounds faintly, in a distorted way, or not at all;
         (2) substituting simple sounds; or (3) lacking the ability to use speech and language.7
         Therapy may include, but is not limited to, diagnostic, screening, preventive, or
         corrective services provided by or under the direction of a speech-language pathologist or




         4
         American Physical Therapy Association, Model Definition of Physical Therapy for State
Practice Acts, Board of Directors Policies, Positions and Guidelines, March 1998.
         5
          The American Occupational Therapy Association, Inc. Definition of occupational therapy
practice for State regulation. The American Occupational Therapy Association, Inc. Policy Manual
(Association Policy 5.3.1), July 1994.
         6
             Health Care Financing Administration, Skilled Nursing Facility Manual, Section 253.3.
         7
         American Speech-Language-Hearing Association, Recognizing Communication Disorders,
organization website, www.asha.org/consumers/brochures/comm_disorders.htm.

Nursing Home Therapy Under the $1500 Caps              6                                      OEI-09-99-00560
         audiologist.8 An example of speech therapy is teaching a patient with swallowing
         disorders various ways to talk and chew without choking.

Medicare Coverage and Cost of Physical, Occupational, and Speech Therapy

         Coverage guidelines for Part B therapy. Medicare guidelines state that all therapy
         must be reasonable, necessary, specific, and effective treatment for the patient’s
         condition. The Centers for Medicare and Medicaid Services (formerly known as the
         Health Care Financing Administration or HCFA), the federal agency that administers the
         Medicare program, requires that therapy (1) is ordered by a physician or other qualified
         health care professional, (2) requires the skills of a qualified therapist rather than
         nonskilled SNF staff, (3) is provided either by or under the direct supervision of a
         certified therapist (as defined in State law), and (4) is dictated by a written treatment
         plan.

         Nursing home charges for Part B therapy. Part B therapy increased from 1999 to
         2000. In the first 6 months of 1999, nursing homes charged the Medicare program
         $271 million for Part B therapy for 328,000 beneficiaries. In the first 6 months of 2000,
         the charges increased to $316 million for 348,000 beneficiaries.

                                  CHANGES IN THERAPY CHARGES9

                                      January-June 1999             January-June 2000            Percent
         Therapy Type
                                      Medicare Charges              Medicare Charges             Change10
               Physical                     $138 million                $186 million            34.8 percent
             Occupational                    $86 million                  $89 million             3.6 percent
               Speech                        $47 million                  $41 million          -12.9 percent
                Total                       $271 million                $316 million           16.6 percent
                                                               Source: Office of Evaluation and Inspections, 2001




         8
          42CFR 440.110 (c).
         9
        Statistics in this table were calculated from 100 percent of beneficiaries for 1999 and a 5 percent
sample of beneficiaries for 2000.
         10
             The totals may not add up due to rounding.

Nursing Home Therapy Under the $1500 Caps                  7                                         OEI-09-99-00560
Medicare Guidelines for Documentation and Retention of Medical Records

         Medical records should include documentation that describes all treatments and the
         patient’s progress throughout the episode of therapy. Documentation should include, but
         is not limited to:

          <	        written or telephone physician’s order for the therapy (telephone orders should be
                    documented in the medical record by a nurse and then confirmed in writing by the
                    physician or other health care professional as soon as possible);
          <	        initial examination and evaluation by the therapist describing the patient’s
                    history, admitting and treatment diagnoses, initial functions, diagnosis, short and
                    long-term treatment goals, and the treatment plan;
          <	        information for each therapy session, also called treatment logs or daily notes,
                    describing the types and length of the types of therapy that the patient received
                    and who provided the therapy (therapist, assistant, or aide);
          <         progress notes explaining the patient’s progress or lack of progress on the
                    treatment plan;
          <         reexaminations and re-evaluations (at least monthly for the same episode of
                    therapy) confirming the continued need for therapy; and
          <         discharge summary which is required at the end of the episode of therapy.11

         The Centers for Medicare and Medicaid Services (CMS) requires that nursing homes
         retain medical records for 5 years after the patient is discharged. 12 If the nursing home
         contracted with independent providers (such as a therapy provider) to render services,
         Medicare guidelines require that nursing homes retain all records for 3 years after final
         payment under the contract.13

The Therapy Caps

         Section 4541(c) of the Balanced Budget Act of 1997 changed SNF reimbursement for
         physical, occupational, and speech therapy by setting two annual caps for Medicare
         Part B patients. Effective January 1, 1999, occupational therapy was limited to $1500
         annually, while physical and speech therapy shared the same $1500 annual cap.




         11
              American Physical Therapy Association, Guide to Physical Therapist Practice, appendix 7,
1998.
         12
         Health Care Financing Administration, Skilled Nursing Facility Manual, Chapter V–Billing
Procedures, Section 545.4.
         13
           Peer Review Organization Manual, Part 13--Management, Section 13140.

Nursing Home Therapy Under the $1500 Caps             8                                      OEI-09-99-00560
         Section 221 of the Medicare, Medicaid, and SCHIP14 Balanced Budget Refinement Act 

         of 1999, passed in November 1999, suspended the cap for 2 years effective 

         January 1, 2000. Section 221(c)(2) of the Law requires CMS to (1) recommend a

         mechanism to assure the appropriate utilization of Medicare outpatient therapy and 

         (2) establish an alternative payment policy based on diagnostic categories, functional

         status, and prior use of therapy.15


Focused Medical Review

         The 1999 law also mandated that the Secretary conduct focused medical reviews of 

         Part B therapy claims, with an emphasis on SNF claims in calendar years 2000 and 2001. 

         In October 2000, CMS launched a Program Safeguard Contract for therapy to (1) analyze

         current national and local medical review policies; (2) conduct extensive literature

         review, analysis, and abstraction; (3) interview fiscal intermediaries and therapy

         providers; and (4) develop medical review protocol for the fiscal intermediaries. 


         Section 421 of the Medicare, Medicaid, and SCHIP Benefits Improvement and

         Protection Act of 2000, passed in November 2000, extended the moratorium on the

         therapy caps for another year, through calendar year 2002. The law also extended the

         requirement for focused review of SNF therapy claims until year 2003. 


Previous Office of Inspector General Work

         The Office of Inspector General released two reports in August 1999 concerning physical
         and occupational therapy rendered to Medicare patients in nursing homes. We found that
         most Medicare patients received appropriate therapy for their initial medical conditions
         and benefitted from therapy. However, almost 13 percent of physical and occupational
         therapy was billed improperly because it was not medically necessary and/or the therapy
         was provided by staff who did not have the appropriate skill. During the 12-month
         period before implementing the SNF prospective payment system, Medicare paid SNFs
         almost $1.3 billion for the unnecessary and improperly documented therapy.16

         In our report entitled Monitoring Part B Therapy for SNF Patients, we noted that there
         was a dramatic decrease in Part B therapy charges during 1999. The decrease may be
         explained by the requirement that, as of January 1999, reimbursement changed from
         “cost-based” to the Medicare Part B fee schedule. However, preliminary reports indicate
         that a rebound in SNF Part B therapy charges may occur because of the moratorium on




         14
              State Children’s Health Insurance Program.
         15
              The Social Security Act, Section 1833(g) as amended.
         16
         Office of Inspector General, Physical and Occupational Therapy in Nursing Homes: Quality of
Care and Medical Necessity for Medicare Patients (OEI-09-97-00121), and Physical and Occupational
Therapy in Nursing Homes: Cost of Improper Billings to Medicare (OEI-09-97-00122), August 1999.

Nursing Home Therapy Under the $1500 Caps              9                                OEI-09-99-00560
         the caps and the lack of adequate contractor oversight of billing practices and medical
         necessity. We recommended that CMS ensure that adequate medical reviews of Part B
         therapy in SNFs are conducted. We also recommended that CMS continue working with
         therapy providers to improve their understanding of Medicare billing procedures and the
         medical necessity guidelines for Part B therapy.


METHODOLOGY

Selection of Sampled SNF Part B Therapy Patients

         From the Medicare Common Working File, we extracted all Part B physical,
         occupational, and speech therapy claims for services provided to SNF patients. 17 These
         claims were submitted to intermediaries by SNFs, rehabilitation agencies, and hospital
         outpatient departments for therapy initiated between January 1 and June 30, 1999. We
         limited the extract to the continental United States.

         We used a multi-stage stratified clustered sample. We clustered the Medicare Part B
         therapy patients into groups of similar size in the same geographical area. We then
         stratified the clusters into four quadrants of the United States. We randomly selected
         4 clusters per quadrant for a total of 16 clusters.

         We used the 75th percentile of each cluster’s estimated therapy reimbursement to group
         patients into two groups. Group 1 contained the 25 percent of patients with the highest
         therapy reimbursement. Group 2 contained the remaining 75 percent. For each cluster,
         we stratified patients within both groups and then selected 20 patients as follows:

         Stratum I--patients with the highest reimbursement in Group 1                     8
         Stratum II--random selection of additional patients from Group 1                  8
         Stratum III--random selection of patients from Group 2                            4
                                                 Total patients per cluster               20

         Our sample for all clusters totaled 320 patients.

On-Site Medical and Financial Review

         Several teams of certified and/or licensed physical and occupational therapists and
         speech-language pathologists conducted on-site review of the medical records for the
         national random sample. Reviewers used medical review instruments to assess the
         medical necessity, underutilization, overutilization, and quality of care provided in




         17
          We identified beneficiaries as “SNF patients” if (1) the SNF submitted the claims, or (2) the
beneficiaries were identified as SNF residents in CMS’ minimum dataset (MDS).

Nursing Home Therapy Under the $1500 Caps           10                                         OEI-09-99-00560
         calendar year 1999. The reviewers also determined if the record documentation and the
         information on the Medicare claims accurately reflected the types of therapy and the
         appropriate length of treatment that the patients received.

         While on-site, in addition to the medical review, we:

         <    reviewed therapy ledgers to determine how SNFs track each patient’s charges that
              were billed to Part B of Medicare;
         <    gathered data to identify payment sources for patients’ in addition to Medicare
              reimbursement;
         <    interviewed SNF administrators and key therapy staff about how they tracked the cap
              and their interactions with their fiscal intermediaries; and
         <    observed physical, occupational, and speech therapy conducted with patients.

         We conducted interviews at 132 facilities--97 SNFs, 28 hospital outpatient departments,
         and 7 rehabilitation agencies located in 18 States. We obtained the medical records for
         318 of the 320 sampled patients. We were unable to review two patient records because
         the facility had closed before our review, and the corporate owner could not retrieve the
         records from storage.

Claims Analysis

         We analyzed the Part B physical, occupational, and speech therapy claims submitted for
         the sampled patients. For each patient, we extracted only claims that were submitted for
         therapy initiated between January 1 and June 30, 1999.

         We analyzed the claims by individual therapy units and clusters of therapy units. An
         individual “unit” of physical, occupational, or speech therapy constitutes one 15-minute
         session of therapy. Clusters of units were grouped into an “episode of care.” An episode
         of care consists of a series of continuous therapy units tied to a specific diagnosis,
         treatment plan, and set of patient goals. An episode of care may last a few days or a few
         months.

         The Balanced Budget Act of 1997 mandated that nursing homes use the CMS Common
         Procedural Coding System to describe each type of therapy that patients receive.
         Medicare Part B therapy claims must include both the code and the number of 15-minute
         sessions, or “units,” for each type of therapy. To illustrate, an occupational therapist
         works with a patient on the activities of daily living, such as bathing and dressing, for
         45 minutes. The Medicare claim would include the appropriate code with three units for
         the length of the treatment.

         Cost projections were based on an analysis of the extracted Part B physical, occupational,
         and speech therapy claims. Information found on each claim was used to calculate the
         estimated amount that Medicare allowed for each therapy claim. Cost projections then




Nursing Home Therapy Under the $1500 Caps        11                                    OEI-09-99-00560
         were calculated using the lower of the calculated Medicare allowed amount or the fiscal
         year 1999 Medicare fee schedule amount.

         This report is one of two reports on physical, occupational, and speech therapy for
         Medicare SNF patients. The other report, Physical, Occupational, and Speech Therapy
         for Medicare Nursing Home Patients: Medical Necessity and Quality of Care based on
         Treatment Diagnosis (OEI-09-99-00563), focuses on the medical necessity and quality of
         care for different therapy diagnoses.

         Our review was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Nursing Home Therapy Under the $1500 Caps       12                                   OEI-09-99-00560
                                            FINDINGS


The $1500 therapy caps did not prevent Medicare SNF
beneficiaries from receiving necessary and appropriate
therapy
Less than 2 percent of Medicare beneficiaries reached either of the $1500 therapy
caps

         Nationally, 0.5 percent of Medicare Part B patients who began therapy between January
         and June 1999 reached or exceeded the $1500 occupational therapy cap within 6 months,
         and only 1.7 percent of patients reached or exceeded the shared $1500 physical and
         speech therapy cap. The average Medicare allowance for patients who received
         occupational therapy was $516, and the average Medicare allowance for physical and
         speech therapy patients was $503.

In approximately 82 percent of therapy episodes, beneficiaries required no
additional therapy

         In most of the episodes of care,18 patients needed no additional therapy by the time their
         treatment ended. To determine if additional therapy was needed, medical reviewers
         examined medical records, treatment logs, and physician orders for each episode of care.
         Reviewers discovered patients rarely needed additional therapy to reach their treatment
         goals or patients would not have benefitted from additional therapy. For example, one
         occupational therapy patient received treatment once a day for approximately 3 weeks.
         After reviewing his record, one medical reviewer suggested, “This is a well documented
         case showing appropriate improvement in a reasonable time. There was good rationale
         for discharging....”

         With regard to the remaining 18 percent, we found that in approximately 12 percent of
         the episodes patients actually needed additional therapy. For the rest, reviewers were
         unable to make a determination.

Patients received therapy beyond the caps because SNFs ignored the caps or
were unaware of them

         According to administrators, SNFs rarely discontinued therapy when patients reached the
         therapy caps. When they reached the $1500 cap, beneficiaries and their families were




         18
          An “episode of care” consisted of a series of continuous therapy units tied to a specific
diagnosis, treatment plan, and patient goals.

Nursing Home Therapy Under the $1500 Caps            13                                        OEI-09-99-00560
         presented with the option of switching to another type of insurance or paying for therapy
         costs out of their own pocket. Administrators indicated that, in some cases, they
         continued to provide therapy to patients and absorbed the extra costs themselves.

         A lack of education on Part B therapy also caused some SNFs to provide therapy to
         patients after they had reached or exceeded the $1500 caps. Staff in more than half of the
         facilities we interviewed reported not receiving training from fiscal intermediaries on
         Part B therapy. According to administrators, this often left them unclear on new billing
         requirements, including the therapy caps. Administrators in these facilities indicated
         that they were unaware of how to monitor the therapy caps, and, subsequently, costs were
         not tracked.


Despite the therapy caps, 14 percent of all therapy was not
medically necessary
         Although most therapy was medically necessary, some was not. Medical reviewers
         deemed that 88 percent of physical therapy was medically necessary, 86 percent of
         occupational therapy was medically necessary, and 67 percent of speech therapy was
         medically necessary. This included therapy that was undocumented or inadequately
         documented, since reviewers were instructed to deem therapy medically necessary when
         documentation was absent or inadequate.

                        MOST THERAPY WAS MEDICALLY NECESSARY


                                              All                          Therapy Type
               Therapy                      Therapy      Physical           Occupational          Speech
     Medically Necessary
                                        85.7 percent    87.7 percent         86.3 percent      66.7 percent
     Therapy
     Therapy Units Billed
                                            9,000,000    6,000,000            2,000,000           700,000
     (approximate)
                                                             Source: Office of Evaluations and Inspections, 2001

         Most SNF patients were diagnosed properly, and a necessary treatment plan was
         developed for each diagnosis. Therapists usually updated treatment plans when a
         patient’s progress or condition changed, and therapy usually was administered with the
         proper frequency and duration. Reviewers also found that most Medicare patients
         benefitted from these services, and medically necessary therapy helped them reach their
         treatment goals.




Nursing Home Therapy Under the $1500 Caps               14                                           OEI-09-99-00560
         Medical reviewers also found that some Medicare SNF patients received medically

         unnecessary therapy. Reviewers identified several reasons why 14 percent of therapy

         was medically unnecessary including, but not limited to:


         <        patients were not appropriate candidates based on their condition;

         <        treatment goals were being met, but therapy continued; 

         <        therapy goals were not being achieved, and a reevaluation was not conducted; or

         <        skilled therapy was provided instead of the routine maintenance that was more

                  appropriate for the patients’s condition.

         Medical reviewers found that the medical condition of some SNF patients did not
         indicate the need for skilled therapy. The diagnosis of some patients indicated that
         therapy would not have benefitted the patient, or the therapist should have postponed
         therapy until the patient’s medical condition stabilized. For example, one occupational
         therapy patient with a questionable cognitive condition received unnecessary therapy
         three times a week for 3 weeks, without improvement. The patient’s lack of motivation
         to participate in a previous therapy episode should have alerted the provider that this
         patient was not an appropriate candidate for therapy. 19

         Some therapy episodes continued 1 to 2 weeks beyond what was medically necessary.
         Medical reviewers noted that therapy continued because, among other reasons, a patient’s
         medical condition had plateaued or SNFs did not properly monitor patient progress.
         In one rural facility, four out of the five patients in our sample received physical therapy
         from 1 to 4 weeks longer than was medically necessary. Reviewers also questioned why
         therapists continued to provide care that was not supported by documentation.

         The SNFs continued to provide therapy, in some cases, to patients who were not meeting
         their treatment goals. Medical reviewers indicated that when a patient does not reach
         their treatment goals, therapy should be reevaluated and possibly discontinued.
         However, several facilities used a “cookie-cutter” treatment plan for all Medicare SNF
         patients. Therapy continued regardless of a patient’s medical status. For example, one
         beneficiary received occupational therapy for 3 months without reaching her treatment
         goals. As the medical reviewer suggested, “...this case did not meet the Medicare
         guidelines of significant practical improvement over a reasonable time period, and
         treatment should have been discontinued.”

         Medical reviewers found that some patients did not need skilled speech therapy. Nursing
         home staff should have provided maintenance instead of skilled speech-language
         pathologists providing maintenance. For example, it was standard practice in many SNFs



         19
          The effects of medical condition, or diagnosis, on medical necessity and quality of care is
discussed in our companion report, Physical, Occupational, and Speech Therapy for Medicare Part B
Nursing Home Patients: An Analysis of Medical Necessity and Quality of Care based on Treatment
Diagnosis, OEI-09-99-00563, July 2001.

Nursing Home Therapy Under the $1500 Caps          15                                       OEI-09-99-00560
         to bill an evaluation and several units of treatment for “changing a patient’s diet” as
         skilled speech therapy. This therapy should have been delivered by the nursing home
         staff after the speech-language pathologist evaluated the patient and recommended the
         appropriate changes.

Medicare allowed approximately $28 million for unnecessary therapy in the first
6 months of 1999

         The Medicare program allowed almost $15 million for unnecessary physical therapy,
         $6.4 million for unnecessary occupational therapy, and $7.5 million for unnecessary
         speech therapy during the first 6 months of 1999, while the therapy caps were in effect.

                       MEDICARE PAYS FOR UNNECESSARY THERAPY

                                       All                   Therapy Type (Millions)
         Reimbursement
                                     Therapy
             Type                                   Physical       Occupational           Speech
                                    (Millions)
       Allowed amount for
                                            $28.7         $14.7             $6.4                $7.5
       unnecessary units

       Total allowed amount            $196.5         $121.4              $49.0                $26.0
                                                      Source: Office of Evaluations and Inspections, 2001

         The mean Medicare allowance for physical, occupational, and speech patients was higher
         with medically unnecessary therapy than without medically unnecessary therapy. We
         discovered that the mean allowance for physical therapy patients was at least $57 higher
         than it should have been, at least $54 higher for occupational therapy patients, and more
         than $76 higher for speech therapy patients. These higher payments were all a result of
         Medicare paying for medically unnecessary services.

         Our sampling methodology does not allow us to make statistically valid projections for
         the entire year. Nevertheless, if we assume that the rate of medically unnecessary
         therapy for the second half of the year was the same as it was for the first 6 months,
         Medicare allowed approximately $56 million dollars for unnecessary therapy during
         1999.

Patients who reached or exceeded the caps received medically unnecessary
therapy

         Eighty percent of the 2 percent of Medicare beneficiaries who reached either of the
         therapy caps received some unnecessary therapy. Medicare allowed between $1500 and
         $2800 for patients who reached the occupational therapy cap, with unnecessary therapy
         totaling anywhere from zero to $1500. Similarly, the amount allowed for Medicare SNF
         patients who reached or exceeded the shared physical and speech therapy cap was


Nursing Home Therapy Under the $1500 Caps            16                                        OEI-09-99-00560
         between $1500 and $2700, with unnecessary therapy totaling anywhere from zero to
         $1900.

         Sixty-three percent of the 1.7 percent of patients who reached the shared therapy cap
         would not have done so if they had received medically necessary therapy only.
         Similarly, approximately 76 percent of the 0.5 percent of beneficiaries who reached or
         exceeded the occupational therapy cap would not have done so had they received
         medically necessary therapy only. For example, more than 50 percent of the units billed
         to Medicare for one patient who exceeded the occupational therapy cap were medically
         unnecessary.


Although physical and speech therapy shared a cap, most
beneficiaries received the physical and speech therapy they
needed
Less than 10 percent of SNF patients needed speech and/or physical therapy and
did not receive them

         Medical reviewers confirmed that when most patients did not receive physical or speech
         therapy it was because therapy would not have benefitted their medical condition. For
         example, after confirming that one patient needed no speech therapy, a medical reviewer
         noted, “Patient previously received speech therapy from October 1998 to January 1999,
         was discharged due to a lack of progress.”

Approximately 2 percent of beneficiaries reached the shared cap at any time
during calendar year 1999

         Very few patients were prevented from receiving physical or speech therapy because they
         reached the $1500 shared cap. An analysis of the complete 1999 claims history showed
         that no more than 2 percent would have reached the shared cap. Approximately 1 percent
         of sampled beneficiaries would have reached the shared cap if Medicare had paid for
         medically necessary therapy only.20

         As mentioned earlier, possible explanations for why patients reached the cap include lack
         of training by fiscal intermediaries on Part B therapy, unnecessary therapy, or disregard
         for the therapy caps by providers.




         20
              We excluded all unnecessary services received by each patient during 1999.

Nursing Home Therapy Under the $1500 Caps             17                                   OEI-09-99-00560
Approximately 10 percent of the therapy units were not
supported by adequate documentation
         We used the decisions of medical reviewers to determine how we would quantify
         documentation errors within our sample. Some episodes of therapy lacked any
         supporting documentation. For these episodes, reviewers were unable to determine if
         therapy was medically necessary. We counted all the billed therapy units associated with
         these episodes as undocumented. In other instances, reviewers determined that the
         episode of therapy was medically necessary, although some individual units were
         undocumented or inadequately documented. We counted these units accordingly.
         Overall, Medicare paid almost $20 million for therapy units that were undocumented or
         not documented adequately in the first 6 months of 1999

Medicare paid approximately $12 million for undocumented therapy units during
the first 6 months of 1999

                                                  Type of Therapy                        Total for All
       Undocumented
                                                                                        Undocumented
         therapy                     Physical      Occupational         Speech              Units
   Percent of units                     8.0%           5.9%               3.3%                 7.1%
   Medicare payment                $8.7 million     $ 2.8 million      $730,000           $12.2 million
                                                           Source: Office of Evaluation and Inspections, 2001

         Although reviewers found some documentation in medical records to support almost
         93 percent of therapy units, documentation was missing for approximately 7 percent of
         the units. The progress notes for some billed units did not describe all types of therapy
         provided in the session. For example, one patient’s Medicare claim included 45 minutes
         of therapy each day for 21 consecutive days. The reviewer noted that the medical record
         contained documentation for 30 minutes of therapy each day rather than 45 minutes. In
         other instances, Medicare claims included units for some therapy that patients did not
         receive. For example, one claim included one unit for 15 minutes of gait training on
         2 consecutive days. However, the therapist stated in the progress notes that the patient
         refused treatment on both days.




Nursing Home Therapy Under the $1500 Caps             18                                        OEI-09-99-00560
Medicare paid approximately $8 million for inadequately documented therapy
units during the first 6 months of 1999


                                                 Type of Therapy                         Total for All
      Inadequately
                                                                                         Inadequately
      Documented
                                                                                         Documented
        Therapy                     Physical       Occupational         Speech              Units
  Percent of units                    3.4%            0.7%               6.8%                 2.9%
  Medicare payment                $4.3 million       $333,000        $2.9 million         $7.6 million
                                                          Source: Office of Evaluation and Inspections, 2001

         Because almost 3 percent of therapy units were not documented adequately, reviewers
         were unable to determine the full range of therapy that patients received. Progress notes,
         which are intended to document how patients were progressing for each type of therapy,
         were incomplete in some medical records. For example, one patient received three types
         of therapy in each session--exercises to build strength and endurance, neuromuscular
         reeducation, and direct therapeutic activity with the therapist. The same types of therapy
         continued for 12 days between January and March 1999. However, the medical reviewer
         found that the documentation was adequate for only two of the three types of treatment in
         each session, but was consistently inadequate for the third type.


Physician’s orders were not included in some medical
records
         Medicare guidelines state that therapy must be ordered in advance by a physician or other
         health care professional and documented in writing in the medical record. We were
         unable to locate a telephone or written order for some of the therapy episodes in our
         sample. The lack of orders corresponds to approximately 5.6 percent of the total therapy
         units billed to Medicare in the first 6 months of 1999. However, medical reviewers still
         determined the medical necessity, quality of care, and utilization of therapy for these
         units.

         Several reasons for missing orders may include:

         <        a separate log of all physician’s orders was missing from a patient’s medical
                  record,
         <        the medical record included a signed order for the first therapy episode but not for
                  subsequent episodes, or
         <        physicians did not countersign telephone orders as required by Medicare
                  guidelines.




Nursing Home Therapy Under the $1500 Caps            19                                       OEI-09-99-00560
         For example, one patient received physical therapy in two episodes. We found a
         physician’s order for the first episode in February 1999. Therapy lasted 1 month. The
         patient began another episode of therapy in May and received therapy for 3 months.
         However, we did not locate a physician’s order for the second episode of therapy.

         Medicare paid nursing homes approximately $10.6 million for these therapy units. Since
         the focus of our study was to determine the medical necessity, quality of care, and
         utilization of therapy, some of these units may have been included in the calculations for
         medically unnecessary, undocumented, and inadequately documented units.


Some SNFs did not retain medical records according to
Medicare guidelines
         Medicare guidelines require that SNFs retain medical records for 5 years after the patient
         is discharged. We reviewed medical records for therapy provided 12 to 20 months before
         our review. Some SNFs were unaware that records were missing until our review. In
         some cases, records were missing because (1) therapy notes were purged from the
         records for long-term patients, sent to storage, and subsequently misplaced or (2) the
         SNF changed therapy providers during 1999, and the previous provider removed the
         therapy records from the facility.

         By removing records, therapy providers may have violated their contracts. Several
         contracts that we reviewed contained language such as, “All case records, case histories,
         personal and regular files concerning patients of the facility or facility patients consulted,
         interviewed, or treated and cared for by the provider shall belong to and remain the
         property of the facility.” In fact, contracts between SNFs and independent therapy
         providers often stated that therapy records should be retained in patients’ records and
         available for a minimum of 4 years after the contract expired.

     Medicare allowed in error approximately $48.5 million for Part B therapy during the
     first 6 months of 1999. This includes $28.7 million for medically unnecessary therapy,
     $12.2 million for undocumented therapy units, and $7.6 million for inadequately
     documented therapy units. These three categories represent an overall error rate of
     24.7 percent of the total allowed amount of approximately $196.5 million for Part B
     therapy during the first 6 months of 1999.

     Our sampling methodology does not allow us to make statistically valid projections for
     the entire year. However, if we assume that the second half of 1999 was the same as
     the first 6 months of 1999, we estimate that the amount Medicare allowed for
     unnecessary, undocumented, and inadequately documented therapy was $97 million.




Nursing Home Therapy Under the $1500 Caps          20                                     OEI-09-99-00560
                       RECOMMENDATIONS


The CMS should:
Encourage fiscal intermediaries to continue educating SNFs on Part B billing and
medical record documentation

         More than half of all administrators told us that SNFs did not receive any training from
         the fiscal intermediary on billing for Part B therapy. Nursing home administrators and
         billing staff often remarked that they did not know how their facility billed therapy
         (charges or the fee schedule), and they were not aware that therapy reimbursement was
         based on the Part B fee schedule.

         Fiscal intermediaries should also educate SNFs and their staff on Medicare requirements
         for medical record documentation and retention, with an emphasis on the proper
         documentation of physician’s orders in patient records.

Instruct fiscal intermediaries to conduct focused medical review in order to
identify and collect Part B therapy overpayments

         Using focused medical review we identified approximately $28 million in overpayments
         for medically unnecessary Part B therapy services in the first 6 months of 1999.
         Instructing fiscal intermediaries to conduct similar focused medical review could result in
         significant cost savings for the Medicare program.

Consider options when developing a new reimbursement system for Part B
therapy

         As mentioned in the background, Section 221 of the Medicare, Medicaid and SCHIP
         Balanced Budget Refinement Act of 1999 requires that CMS establish an alternative
         payment policy for SNFs. Based on our inspection, we suggest that CMS consider:

         <        basing reimbursement on an episode of therapy rather than an annual cap, and/or
         <        requiring prior authorization for therapy that exceeds a separate monetary cap for
                  each type of therapy.

Continue working collaboratively with the national therapy associations

         We believe that poor documentation is a result of a lack of awareness and understanding
         of Medicare guidelines and requirements on the part of SNFs and therapists. By working
         with the national associations, CMS can assure that they provide accurate and




Nursing Home Therapy Under the $1500 Caps         21                                    OEI-09-99-00560
         comprehensive information to their members on proper documentation of therapy in
         medical records.


AGENCY RESPONSE

         We received comments on the draft report from CMS. The Agency concurred with our
         recommendations. They will continue to educate nursing homes on Medicare Part B
         billing and medical record documentation and continue to recommend that fiscal
         intermediaries conduct focused medical review whenever their analysis suggests
         egregious overutilization of services. The CMS will consider options when developing a
         new reimbursement system for Medicare Part B therapy. Finally, CMS will continue its
         ongoing collaboration with the national therapy associations to provide information on
         proper documentation of therapy in medical records. The full text of the Agency’s
         comments appears in appendix B.




Nursing Home Therapy Under the $1500 Caps      22                                  OEI-09-99-00560
                                                                                 APPENDIXAA
                                                                                APPENDIX

                 Confidence Intervals for Selected Statistics

         The following table shows the point estimates and 95 percent confidence intervals for
         selected statistics, in the order that they appear in the report. These calculations account
         for all levels of clustering and stratification as described in the methodology.

                                                            Point                95 Percent
                          Statistic
                                                           Estimate          Confidence Interval
Of Medicare SNF beneficiaries, percent who reached
                                                              1.7%                0.4% - 3.1%
either of the $1500 therapy caps
Of Medicare SNF beneficiaries, percent who reached
                                                              0.5%                 0% - 1.1%
the $1500 occupational therapy cap
Of Medicare SNF beneficiaries, percent who reached
                                                              1.7%                0.3% - 3.0%
the $1500 shared cap for physical and speech therapy
Average allowed amount that Medicare reimbursed
                                                              $516                $309 - $723
SNFs for occupational therapy beneficiaries
Average allowed amount that Medicare reimbursed
                                                              $503                $425 - $581
SNFs for physical and speech therapy beneficiaries
Of Medicare nursing home beneficiaries, percent who
                                                             82.1%               75.1% - 89.1%
did not need additional therapy
Of January - June 1999 therapy units, percent that were
                                                             85.7%               79.7% - 91.7%
medically necessary for all therapies
Of January - June 1999 therapy units, percent that were
                                                             87.7%               79.2% - 96.1%
medically necessary for physical therapy
Of January - June 1999 therapy units, percent that were
                                                             86.3%               79.3% - 93.9%
medically necessary for occupational therapy
Of January - June 1999 therapy units, percent that were
                                                             66.7%               48.6% - 84.9%
medically necessary for speech therapy
Of January - June 1999 therapy units, percent that were
                                                             14.3%               8.3% - 20.3%
medically unnecessary for all therapies
Amount Medicare reimbursed SNFs for all therapy that
                                                          $28.7 million   $16.9 million - $40.5 million
was medically unnecessary




Nursing Home Therapy Under the $1500 Caps            23                                  OEI-09-99-00560
                                                                           APPENDIX A

                                                         Point                95 Percent
                          Statistic
                                                        Estimate          Confidence Interval
Amount Medicare reimbursed SNFs for physical
                                                      $14.7 million    $4.3 million - $25.2 million
therapy that was medically unnecessary
Amount Medicare reimbursed SNFs for occupational
                                                       $6.4 million    $2.4 million - $10.4 million
therapy that was medically unnecessary
Amount Medicare reimbursed SNFs for speech therapy
                                                       $7.5 million    $1.5 million - $13.5 million
that was medically unnecessary
Of Medicare nursing home beneficiaries, percent who
needed physical and/or speech therapy but did not         9.3%               3.6% to 14.9%
receive them

Of January - June 1999 therapy units, percent that
                                                          7.1%               2.4% - 11.7%
were undocumented
Of January - June 1999 therapy units, amount
Medicare reimbursed nursing homes for units that      $12.2 million   $5.0 million - $19.5 million
were undocumented
Of January - June 1999 physical therapy units,
amount Medicare reimbursed nursing homes for          $8.7 million    $1.5 million - $15.8 million
units that were undocumented
Of January - June 1999 occupational therapy units,
amount Medicare reimbursed nursing homes for          $2.8 million    $0.8 million - $4.8 million
units that were undocumented
Of January - June 1999 therapy units, percent that
                                                          2.9%                0.8% - 5.1%
were not documented adequately
Of January - June 1999 therapy units, amount
Medicare reimbursed nursing homes for units that      $7.6 million    $2.1 million - $13.1 million
were not documented adequately
Of January - June 1999 physical therapy units,
amount Medicare reimbursed nursing homes for          $4.3 million    $0.4 million - $8.2 million
units that were not documented adequately
Of January - June 1999 occupational therapy units,
amount Medicare reimbursed nursing homes for           $333,000           $50,000 - $616,000
units that were not documented adequately




Nursing Home Therapy Under the $1500 Caps        24                                  OEI-09-99-00560
                                                                              APPENDIX A

                                                           Point                95 Percent
                          Statistic
                                                          Estimate          Confidence Interval
Of January - June 1999 speech therapy units, amount
Medicare reimbursed nursing homes for units that were    $2.9 million          0 - $6.0 million
not documented adequately
Of January - June 1999 therapy units, percent of units
                                                            5.6%                 2.0% - 9.3%
for which we were unable to find a physician’s order
Of January - June 1999 units, amount Medicare
reimbursed nursing homes for units that were medically
                                                         $48.5 million   $29.6 million - $67.4 million
unnecessary, undocumented, and inadequately
documented
Of January - June 1999 therapy episodes, percent that
                                                            9.2%                3.5% - 14.9 %
did not have physician’s order




Nursing Home Therapy Under the $1500 Caps           25                                 OEI-09-99-00560
                                                               APPENDIX B

                                            Agency Comments





Nursing Home Therapy Under the $1500 Caps          26              OEI-09-99-00560
                                                 APPENDIX B




Nursing Home Therapy Under the $1500 Caps   27       OEI-09-99-00560
                                                 APPENDIX B




Nursing Home Therapy Under the $1500 Caps   28       OEI-09-99-00560
                                                 APPENDIX B




Nursing Home Therapy Under the $1500 Caps   29       OEI-09-99-00560
                                                 APPENDIX B




Nursing Home Therapy Under the $1500 Caps   30       OEI-09-99-00560
